No.

IN THE
SUPREME COURT OF THE UNITED STATES

Condra L. Smith
— PETITIONER
(Your Name)
VS.
united states department of education,et al

— RESPONDENT(S)

PROOF OF SERVICE
Condra L. Smith

________________ , do swear or declare that on this date,
ids
Zt ■
20 20 ; as required by Supreme Court Rule 29 I have
/
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

The names and addresses of those served are as follows:
Deborah M. Leonard
United States Attorney's Office
iMonnern ui sirici or moiana
US Court House
5400 Federal Plaza Suite 1 500
Hammond, Indiana 46320
Bonnie L. Martin
OGLETREE, DEAKINS, NASH, SMOAK S STEWART, PC
111 Monument Circle
Suite 4600
Indianapolis, IN 46204

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

Ju// F7 Z0£O

, 2Q20_

7

